Fe
I

mmm  CQOCKLE

Lega 1 Brie f E-Mail Address:
Omaha, Nebraska 68102-1214 & Fet on contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-18
ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF INSTITUTE FOR
JUSTICE AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4315 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of December, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL NOTARY-State of Nebraska
A RENEE J. GOSS Keonse. 9. Fosae Quedraw- Ke. Chk
Notary Public

Affiant

40406
